<html>
<title> - 2020 GENERAL ELECTION PREPARATIONS</title>
<body><pre>[Senate Hearing 116-266]
[From the U.S. Government Publishing Office]




                                                            
                                                        S. Hrg. 116-266

                   2020 GENERAL ELECTION PREPARATIONS

=======================================================================

                                HEARING

                               before the

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                             JULY 22, 2020

                               ----------                              

    Printed for the use of the Committee on Rules and Administration


                  Available on http://www.govinfo.gov
                  
                  
                  
                  

                   2020 GENERAL ELECTION PREPARATIONS
                   
                   
                   


                           



                                                        S. Hrg. 116-266
 
                   2020 GENERAL ELECTION PREPARATIONS

=======================================================================

                                HEARING

                               before the

                 COMMITTEE ON RULES AND ADMINISTRATION
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2020

                               __________

    Printed for the use of the Committee on Rules and Administration
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    


                  Available on http://www.govinfo.gov
                  
                  
                  
                  
                           ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
41-243                  WASHINGTON : 2020               
 
 
                  
                  
                  
                  
                 COMMITTEE ON RULES AND ADMINISTRATION

                             SECOND SESSION

                     ROY BLUNT, Missouri, Chairman

MITCH McCONNELL, Kentucky            AMY KLOBUCHAR, Minnesota
LAMAR ALEXANDER, Tennessee           DIANNE FEINSTEIN, California
PAT ROBERTS, Kansas                  CHARLES E. SCHUMER, New York
RICHARD SHELBY, Alabama              RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      TOM UDALL, New Mexico
SHELLEY MOORE CAPITO, West Virginia  MARK R. WARNER, Virginia
ROGER WICKER, Mississippi            PATRICK J. LEAHY, Vermont
DEB FISCHER, Nebraska                ANGUS S. KING, JR., Maine
CINDY HYDE-SMITH, Mississippi        CATHERINE CORTEZ MASTO, Nevada

                   Fitzhugh Elder IV, Staff Director
                Lindsey Kerr, Democratic Staff Director
                
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                  Pages

                         Opening Statement of:

Honorable Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri.......................................................     1
Honorable Amy Klobuchar, a United States Senator from the State 
  of Minnesota...................................................     2
Honorable Tre Hargett, Tennessee Secretary of State..............     7
Honorable Mac Warner, West Virginia Secretary of State...........    10
Rick Stream, Republican Director of Elections, St. Louis County, 
  Missouri.......................................................    11
Kristen Clarke, President and Executive Director, National 
  Lawyers' Committee for Civil Rights under Law..................    13

                    Prepared Statement/Testimony of:

Honorable Tre Hargett, Tennessee Secretary of State..............    35
Honorable Mac Warner, West Virginia Secretary of State...........    39
Rick Stream, Republican Director of Elections, St. Louis County, 
  Missouri.......................................................    41
Kristen Clarke, President and Executive Director, National 
  Lawyers' Committee for Civil Rights Under Law..................    43

                  Materials Submitted for the Record:

Hon. Roy Blunt--Letter from the Republican Secretaries of State 
  Committee (RSSC)...............................................    70
Hon. Roy Blunt--Letter from Hon. John Thurston, Arkansas 
  Secretary of State.............................................    73
Hon. Amy Klobuchar--Written Statement of the American Civil 
  Liberties Union (ACLU).........................................    75
Hon. Amy Klobuchar--Statement of Business for America (BFA)......   102
Hon. Amy Klobuchar--Letter from Health Professionals Regarding 
  by-mail-voting and COVID-19....................................   107
Hon. Amy Klobuchar--Letter from Declaration for American 
  Democracy (DFAD) Organizations Urging the Senate to Make 
  Additional Investments in State and Local Elections............   135
Hon. Amy Klobuchar--Letter from the U.S. Election Assistance 
  Commission.....................................................   137
Hon. Amy Klobuchar--Letter from the Election Center: The National 
  Association of Election Officials Regarding Federal Funding....   140
Hon. Amy Klobuchar--Letter from Hon. Steve Simon, Minnesota 
  Secretary of State and Other Secretaries of State as 
  Signatories....................................................   142
Hon. Amy Klobuchar--Letter from The Leadership Conference on 
  Civil and Human Rights to the Senate Committee on Rules and 
  Administration Regarding COVID-19..............................   144
Hon. Amy Klobuchar--Letter from Hon. Steve Simon, Minnesota 
  Secretary of State to Senator Klobuchar Regarding Additional 
  HAVA Funds.....................................................   152
Hon. Amy Klobuchar--Letter from the NAACP Legal Defense and 
  Educational Fund (LDF).........................................   153
Hon. Amy Klobuchar--Letter from the National Association of 
  Counties (NACo)................................................   171
Hon. Amy Klobuchar--Letter from the Native American Rights Fund 
  (NARF) in Support of Additional Funding for the 2020 General 
  Election.......................................................   173
Hon. Amy Klobuchar--Letter from the National Association of 
  Secretaries of State (NASS) Regarding CARES Act Funding........   177
Hon. Amy Klobuchar--Letter from the National Disability Rights 
  Network (NDRN).................................................   179
Hon. Amy Klobuchar--Letter from the National Education 
  Association (NEA)..............................................   186
Hon. Amy Klobuchar--Letter from Representative Jim Cooper........   188
Hon. Amy Klobuchar--Letter from Secure Democracy.................   190
Hon. Amy Klobuchar--Letter from the Voting Rights Lab............   192
Hon. Mitch McConnell--Letter from Hon. Michael G. Adams, Kentucky 
  Secretary of State.............................................   231
Hon. Mitch McConnell--Letter from Hon. Ken Paxton, Attorney 
  General of Texas and Other State Attorneys General Signatories 
  Regarding the HEROES Act.......................................   233
Hon. Mitch McConnell--Letter from Hon. John H. Merrill, Alabama 
  Secretary of State.............................................   237
Hon. Mitch McConnell--Letter from Hon. Mac Warner, West Virginia 
  Secretary of State.............................................   238
Hon. Dianne Feinstein--Letter from Black Women for Wellness and 
  other Organizations from the Black Reproductive Health, Rights 
  and Justice Community as Signatories Regarding COVID-19........   240
Hon. Richard Durbin--Testimony from Public Wise..................   244
Hon. Richard Durbin-- Statement for the Record from Senator 
  Kamala D. Harris...............................................   247
Hon. Angus King--Letter on Elections and National Security from 
  Multiple Signatories...........................................   249
Hon. Mac Warner--West Virginia 2020 Primary After Action Report 
  with Attachments...............................................   252

                  Questions Submitted for the Record:

Honorable Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Honorable Tre Hargett, Tennessee Secretary of State   301
Honorable Amy Klobuchar, a United States Senator from the State 
  of Minnesota to Honorable Tre Hargett, Tennessee Secretary of 
  State..........................................................   304
Honorable Patrick Leahy, a United States Senator from the State 
  of Vermont to Honorable Tre Hargett, Tennessee Secretary of 
  State..........................................................   305
Honorable Angus S. King, Jr., a United States Senator from the 
  State of Maine to Honorable Tre Hargett, Tennessee Secretary of 
  State..........................................................   308
Honorable Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Honorable Mac Warner, West Virginia Secretary of 
  State..........................................................   310
Honorable Amy Klobuchar, a United States Senator from the State 
  of Minnesota to Honorable Mac Warner, West Virginia Secretary 
  of State.......................................................   311
Honorable Patrick Leahy, a United States Senator from the State 
  of Vermont to Honorable Mac Warner, West Virginia Secretary of 
  State..........................................................   312
Honorable Angus S. King, Jr., a United States Senator from the 
  State of Maine to Honorable Mac Warner, West Virginia Secretary 
  of State.......................................................   314
Honorable Roy Blunt, Chairman, a U.S. Senator from the State of 
  Missouri to Rick Stream, Republican Director of Elections, St. 
  Louis County, Missouri.........................................   317
Honorable Amy Klobuchar, a United States Senator from the State 
  of Minnesota to Rick Stream, Republican Director of Elections, 
  St. Louis County, Missouri.....................................   318
Honorable Patrick Leahy, a United States Senator from the State 
  of Vermont to Rick Stream, Republican Director of Elections, 
  St. Louis County, Missouri.....................................   319
Honorable Angus S. King, Jr., a United States Senator from the 
  State of Maine to Rick Stream, Republican Director of 
  Elections, St. Louis County, Missouri..........................   321
Honorable Amy Klobuchar, a United States Senator from the State 
  of Minnesota to Kristen Clarke, President and Executive 
  Director, National Lawyers' Committee for Civil Rights Under 
  Law............................................................   322
Honorable Patrick Leahy, a United States Senator from the State 
  of Vermont to Kristen Clarke, President and Executive Director, 
  National Lawyers' Committee for Civil Rights Under Law.........   324
Honorable Angus S. King, Jr., a United States Senator from the 
  State of Maine to Kristen Clarke, President and Executive 
  Director, National Lawyers' Committee for Civil Rights Under 
  Law............................................................   327


                   2020 GENERAL ELECTION PREPARATIONS

                              ----------                              


                        WEDNESDAY, JULY 22, 2020

                       United States Senate
              Committee on Rules and Administration
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
Room 301, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Committee, presiding.
    Present: Senators Blunt, Klobuchar, Alexander, Capito, 
Wicker, Fischer, Hyde-Smith, Schumer, Durbin, Udall, Leahy, 
King, and Cortez Masto.

  OPENING STATEMENT OF HONORABLE ROY BLUNT, CHAIRMAN, A U.S. 
               SENATOR FROM THE STATE OF MISSOURI

    Chairman Blunt. The Committee on Rules and Administration 
will come to order. Good morning. I am glad to welcome our 
witnesses today. This is a hearing that I think is appropriate 
in its timing as we look toward the rest of the year. There are 
104 days until the general election. There are still a few 
primary elections to be held around the country. State and 
local officials, however, have begun preparations for this 
fall's election long before now.
    As the former Missouri Secretary of State, which would be 
the Chief Election Official in our state, and as the Green 
County Clerk and Election Authority, my first elected job, I've 
administered elections and know how much advanced planning and 
preparation is required. I know that the limited resources 
available are often not up to what needs to be done 
particularly in a year like this. I also know that election 
officials prepare for natural disasters and other eventualities 
as a matter of course. There are lots of ``what will we do 
if?'' questions that election officials address before every 
election and sometimes they have to move forward on the ``what 
will we do if?'' because something happens.
    This year, with COVID-19, with the pandemic, I think it has 
taken the pressures and challenges of the election to a new 
level. Already limited resources may have to be put to use not 
just to ensure the safety and security of our democracy, but to 
ensure the health and safety of individual voters and election 
workers. Elections during the pandemic are not unprecedented. 
We had midterm elections, I am told, that were conducted during 
the 2018 flu pandemic and more recently in 2009. A handful of 
states held off year elections during the H1N1 flu pandemic.
    It was unexpected just like the situation we are dealing 
with now and would have been unexpected a year ago. Since the 
March 13th declaration of a national emergency, election 
officials and state officials around the country have addressed 
the pandemic by postponing elections, by expanding early and 
absentee voting programs, by reallocating or relocating polling 
places away from places where individuals at risk are, by 
working with health officials to ensure that polling places are 
properly cleaned and sanitized and that the appropriate 
personal protective equipment is available at polling places 
and ballot processing facilities.
    Election officials have also recruited additional election 
workers, implemented other programs like curbside voting that 
would help make voting less of a health risk. Election 
officials have done all of this on top of the continuing 
efforts to ensure that this country's elections are secure from 
malicious actors who seek to attack voting infrastructure and 
spread disinformation. All of these elections and all of these 
actions have been taken to ensure that every voter can cast 
their ballot safely and securely in this year's elections. That 
is something that everyone here can agree on.
    Voters in this country must be able to cast a ballot safely 
and securely without putting their health at risk, both this 
fall in the general election and the remaining primary 
elections leading up to the general. Those are principles that 
hopefully we all agree with. To that end, Congress has provided 
funds to election officials to assist with administrating 
elections during the pandemic. On top of the $805 million that 
Congress previously provided for election security, $400 
million was appropriated specifically to assist with pandemic 
related election expenses in the CARES Act.
    This money was provided without any Federal policy 
mandates, in keeping with really almost 250 years of our 
history of state run elections. Today, I look forward to 
hearing how much money is going to be needed in terms of 
additional financial assistance and also hearing how the money 
that's already been provided by the Federal Government has been 
used. We are fortunate today to have four great witnesses join 
us, two of them are here with us, two are joining us from their 
offices. We look forward to both your testimony and the 
questions, and I am honored to recognize my good friend, 
Senator Klobuchar, for her opening remarks.

 OPENING STATEMENT OF HONORABLE AMY KLOBUCHAR, A UNITED STATES 
              SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Well, thank you very much, Senator 
Blunt. Thank you, Mr. Chairman, for holding this important 
hearing. It couldn't come at a more crucial time, and thank you 
to our public officials and leaders who are here today and the 
thousands of people that actually wrote us about this hearing 
who want to be able to vote and they want to be able to vote 
safely. Today, we are in the midst of an unprecedented pandemic 
and we have already seen examples of chaos and 
disenfranchisement that happened when this pandemic came upon 
us.
    The Wisconsin primary will forever be etched in the minds 
of those that saw the images of voters standing in line en 
masse and garbage bags in the rain just to exercise their right 
to vote. According to local health officials, nearly 70 people, 
voters and poll workers, contracted coronavirus as a result of 
them simply going to the polls. I had a Vietnam vet write me 
and said, ``I put my life on the line for our country and now 
is my choice to not be able to vote or to sacrifice my health? 
I have a pre-existing condition.'' I think we are all here 
because we understand this is not a partisan issue. This virus 
can hit Democrats, Republicans, Independents, people of any 
party and people of any party also want to vote, so let's look 
at solutions. For the primary, 12 out of 16 states that require 
an excuse to vote by mail changed their rules, which is great, 
to allow all voters to cast ballots by mail, including red 
states, including states like Indiana, West Virginia, Kentucky, 
South Carolina, Alabama and Missouri, and just this week, 
Alabama announced it will allow anyone concerned about the 
virus to vote by mail.
    Twelve states also mailed absentee ballot applications to 
registered voters, including states like New York and 
Connecticut, states like Iowa and Michigan and states like 
Nebraska and West Virginia, and states as diverse as New Jersey 
and Nevada mailed absentee ballots to all registered voters. 
These decisions weren't made on a partisan basis. Both 
Republican and Democratic local officials across the country 
took these actions to protect voters. Throughout the primary we 
have seen voters turning to vote by mail in a big way. We know 
there is overwhelming support in actually voters in both 
parties in a number of swing states, at least where I have seen 
polls, for making sure that our Congress gives the resources 
necessary to the states so that people can exercise their right 
to vote.
    I just want to keep pointing out the support that we have 
seen for money and help from Republican leaders across our 
country. Some examples. We have got Iowa's Republican Secretary 
of State, Paul Pate, has said, ``We're going to be aggressively 
promoting and encouraging folks: Please vote by mail through 
the absentee process.'' Washington's Republican Secretary of 
State, Kim Wyman, has been advocating for the expansion of 
voting by mail during the pandemic. We have seen Florida's 
primary 57 percent of Republicans mail their ballot compared to 
only 41 percent of Democrats, 96 percent of voters in 
Maryland's Republican primary voted by mail.
    The Republican Party in Florida sent out a mailer 
encouraging voters to request an absentee ballot. It has an 
image of a tweet from the President that begins, ``Absentee 
Ballots are fine. A person has to go through a process to get 
and use them'' but then it blurs out the rest of the tweet 
where the President goes on to attack voting by mail. I wanted 
to bring that up not because I want to be partisan but because 
I think it is really important for people to understand how 
untrue these allegations are about voting by mail. Mitt Romney 
has stood up and said he is proud that his state has such a 
high percentage of voting by mail. In the words of Ohio's 
Republican Secretary of State, ``It is irresponsible--whether 
it's a Republican or Democrat--for people to create a sense, 
incorrectly, in the minds of voters that they can't trust their 
elections.''
    As the New York Times editorial board noted, Oregon has 
sent out more than 100 million mail-in ballots since 2000 and 
has documented only about a dozen cases of proven fraud. 
Rounded to the 7th decimal point that is 0.0000001 percent of 
all votes cast. That is my first point. My second point is that 
states need help. Mr. Chairman, as part of the CARES Act, I was 
pleased to be able to work with you and Senator Leahy, Coons, 
Shelby, Kennedy and others to secure the $400 million in 
funding to make our elections resilient. We know that that is 
not enough.
    For Georgia's June primary, election officials spent over 
$8 million of the $10.9 million the state received from the 
CARES Act. That is in a primary. New York has spent nearly all 
of its funding. By the way, New York had a rate of voting by 
mail of only 5 percent. Think about that change over when I 
know the Secretary of States knowing that in many states over 
50 percent of people are voting by mail. Kentucky, Ohio, and 
Wisconsin election officials have reported they have spent the 
majority of their funding already. We know that it is not just 
the funding we need, the bill that I have authored with Senator 
Wyden puts in some minimum standards. I know not everyone here 
is a fan of them, but I think this idea that we could just say 
to people, hey, you can keep the polls open for 20 days, 
similar to the version that passed in the Heroes Act in the 
House. We are not going to have any requirements that you have 
to have a notary to be able to go out and get your absentee 
ballot.
     I am really pleased that state officials have taken this 
on but not every state official has and I think we should have 
some minimum standards in place. Beyond that, I know one thing 
that there is some widespread agreement on between Democrats 
and Republicans is that we need the funding in this Heroes Act 
to help people vote.
    I would rather be putting ballots in a mailbox than people 
in the hospital. That is a choice we have for so many voters 
and that is why you see overwhelming support for getting 
funding and something I believe that we can get done on a 
bipartisan basis, funding for not just the vote by mail and the 
postage in the envelopes, which we are seeing just an increase 
we never thought possible during this pandemic, but also for 
keeping polls open early and for making sure that we are 
training workers at the polls who don't have pre-existing 
conditions, who aren't seniors, who aren't putting themselves 
in a vulnerable position by working at the polls. With that, 
Mr. Chairman, thank you so much for your leadership and for 
being willing to have this hearing.
    Chairman Blunt. Well, thank you, Senator Klobuchar. Let's 
go to our witnesses. I will first ask Senator Alexander to 
introduce our witness from Tennessee.
    Senator Alexander. Thank you, Mr. Chair. Mr. Chairman, in 
Tennessee we take our Secretaries of State seriously. We have 
had some good ones and Tre Hargett certainly is one of the very 
best. He was elected our 37th Secretary of State more than 10 
years ago, re-elected in 2013 and 2017. He is recognized by his 
peers, he is an influential member of the National Association 
of Secretaries of States, he is Vice President of the Southern 
Region, a member of the Association's Executive Committee.
    He has led a massive overhaul of our state department's 
technological abilities, including online voter registration 
and a GoVote Tennessee mobile app. When he is not working on 
elections, he is working on libraries. He has been an avid 
promoter and architect of our Tennessee State Library and 
Archives and its new facilities at Bicentennial Mall. He has 
been in the House of Representatives. He was twice elected 
Republican leader. He is one of our most distinguished 
citizens. I am proud to welcome to the committee Tre Hargett.
    Chairman Blunt. Thank you, Senator Alexander. Senator 
Capito, we have got a witness from West Virginia for you to 
introduce.
    Senator Capito. Yes. Thank you, Mr. Chairman, and I am 
really pleased to introduce my friend, our Secretary of State, 
West Virginia's Mac Warner. Mac lives in Morgantown, but he is 
a native of Charleston, West Virginia. He is a graduate of the 
United States Military Academy, as are several of his brothers 
and more than a few of his children as well. But he also is an 
attorney graduating from the West Virginia College of Law. He 
has a Masters of Law degree also from the University of 
Virginia and the Army Judge Advocate General School.
    He served 23 years in the United States Army, serving on 4 
continents and has served for 5 years as a--for the Department 
of State in Afghanistan for 5 years. He was sworn in as our 
30th Secretary of State, which is in charge of our election 
process. He is a tireless advocate for election security and 
making it easier for our deployed military personnel to be able 
to vote in our state's elections. He did have a difficult 
election.
    The Governor pushed the date back by a month this past--
this primary election, but Secretary Warner handled it, and his 
staff, handled it with great success. Changed some of the 
protocols and everything seemed to work out pretty smoothly, so 
congratulations to him. He also has been innovative in the 
online space, online voting space, and that he has an 
innovative system, I am sure we will talk about it, to have 
deployed military personnel vote remotely from wherever they 
are deployed. I am very pleased that Secretary Warner is here 
with us to share his experiences. Thank you.
    Chairman Blunt. Thank you, Senator. From Missouri, we have 
Rick Stream, the Director of Elections in St. Louis County. It 
is our biggest single jurisdiction with 750,000 registered 
voters. The county has over a million people in the county. Mr. 
Stream was in the legislature for several years, was in the 
Navy for a career before that, and has been the Director of 
Elections since 2017. Senator Klobuchar, I think you are going 
to introduce our fourth panelist today.
    Senator Klobuchar. Thank you. I am proud to have with us 
today Ms. Kristen Clarke. She serves as the President and 
Executive Director of the National Lawyers Committee for Civil 
Rights Under Law. Throughout her career, she has focused on 
work that seeks to strengthen democracy by combating 
discrimination faced by African-Americans and other communities 
of color.
    She spent several years at the NAACP Legal Defense and 
Educational Fund. Prior to joining the Legal Defense Fund, she 
worked in the Department of Justice's civil rights division 
where she served as a Federal prosecutor in the criminal 
section of the division. She has received her A.B. from Harvard 
University and her JD from Columbia Law School and we are 
honored to have her here today.
    Chairman Blunt. Thank you, Senator. I think most of the 
panel, the witnesses, have submitted statements for the record, 
but we would be glad to have you share, however, much of that 
statement you would like to share. We will go through these 
statements in the order that our witnesses were introduced. 
Secretary Hargett, if----
    Senator Schumer. Wait a minute. Hey, Roy.
    Chairman Blunt. Yes?
    Senator Schumer. Schumer.
    Chairman Blunt. Oh, would you like to--would you like to--
Chuck, would you like to make some opening remarks?
    Senator Schumer. Yes, I would.
    Chairman Blunt. The Democrat leader. We are lucky to have 
him on the committee, and he is here today, and go ahead. We 
have got a few minutes here if you want to use it.
    Senator Schumer. Thank you. Thank you, Chairman Blunt. You 
are always courteous and I appreciate the opportunity to 
testify before the Rules Committee. I appreciate three 
witnesses waiting for my testimony. I want to thank Amy 
Klobuchar for the amazing job she does on the election, the 
rights of people to vote, particularly during this pandemic 
times. Last week after six decades as one of the Nation's most 
preeminent civil rights leaders, as Congressman John Lewis 
passed away, his trials and tribulations and ultimately his 
triumph are well known to us all.
    His actions as a young man helped change the trajectory of 
the Nation and brought about the Voting Rights Act, perhaps the 
most important piece of civil rights legislation that Congress 
has ever passed. Unfortunately, many of the old enemies John 
faced down have not yet been vanquished. Racial disparities 
persist and gnaw at the fabric of our democracy. The law that 
John Lewis nearly died for has been gutted by the Supreme 
Court, and unfortunately only one political party seems 
interested to restore it.
    We meet today, some in person and some virtually, on the 
subject of elections and the fundamental right of every 
American citizen to be able to vote, something John Lewis spent 
his whole life marching for. As we mourn the loss, I would ask 
my fellow Americans, including my colleagues on this committee 
of both parties, to take up his loss, take up his mission. In 
103 days, our Nation will seek to hold an election in the face 
of unprecedented challenges. We all know administering a 
national election is complicated endeavor, even under the most 
favorable of conditions and doing so while navigating COVID-19 
is downright harrowing.
    States and localities need resources to make the 
adjustments necessary to ensure that every American who wishes 
to cast a ballot can do so safely. Independent experts estimate 
the Federal Government would need to provide $3.6 billion in 
additional funding in order to ensure that state and local 
officials have what they need to meet this challenge. The 
Heroes Act, which passed the House more than 2 months ago, 
provides that amount along with critical protections related to 
mail-in voting, in-person voting, voter registration and other 
things.
    Unfortunately, as localities prepare for the 2020 election 
and urge more Federal resources to hold safe elections, that 
legislation has languished in the Senate while President Trump 
and some Congressional Republicans have spread misinformation 
about voting by mail. The lack of urgency from our Senate 
Republican leadership, and I know you are trying very hard 
Chairman Blunt to get something done here, but the leadership 
is not giving us what they really need in providing these 
desperately needed resources. That should appall most 
Americans. John Lewis' mission was to restore the right to 
vote. The best way to keep his legacy alive is not simply 
giving good speeches on the floor, as important and nice as 
they are, but is to make sure that right to vote, even during 
this COVID crisis, is preserved, protected, and not stood in--
not abused.
    The callous way, just last week, the Majority Leader 
dismissed the pernicious voter suppression that corrodes our 
democracy to this very day as nonsense that the Democrats are 
promoting, the calloused way in which these remarks completely 
dismissed the experience of black and latino voters who have to 
wait 45 to 46 percent longer on average than white persons to 
cast the ballot, often as a result of intentional polling 
closures we have seen in state after state is jarring.
    I acknowledge there are legitimate policy disputes on how 
to best preserve the economy, protect public health, provide a 
quality education to the students in the midst of this crisis, 
but one thing that should not be in dispute, however, is 
whether Congress should provide the resources, experts, and 
officials from across the political spectrum who are so 
desperately needed to protect the November election. We need to 
prepare for an unprecedented flood of mail-in ballots by 
ensuring the postal service has sufficient funding and makes no 
detrimental changes to their operation that could have a 
negative impact on the election this fall. We are talking about 
the very wellspring of our wonderful democracy: free and fair 
elections.
    It shouldn't be an issue about right and left because it is 
an issue of right and wrong. Members from both sides of the 
aisle have released heartfelt statements in recent days 
honoring the life of John Lewis. Over the next few weeks, every 
member of this body will have an opportunity to make it 
abundantly clear where they actually stand on the most critical 
component of John Lewis' legacy, his unwavering belief in the 
fundamental right of every American citizen to cast a ballot 
free from undue burden.
    Speeches are fine but John Lewis would prefer action. 
Action means supporting the legislation in the Heroes bill. As 
we debate the next round of COVID relief, Democrats will insist 
on providing states the resources to carry out our elections 
fairly, safely, and efficiently, and I hope, I hope our 
Republican friends will join us. It is nice to make grand 
statements about the unparalleled life of John Lewis. Paying 
lip service to his legacy without taking meaningful action 
would be the height of hypocrisy. I thank you for the time, Mr. 
Chairman, Madam Ranking Member, and yield the floor.
    Chairman Blunt. Thank you, Senator. Secretary Hargett.

OPENING STATEMENT OF HONORABLE TRE HARGETT, TENNESSEE SECRETARY 
                            OF STATE

    Mr. Hargett. You and your colleagues are in my prayers 
during this challenging time for our Nation and our world and I 
am indeed grateful for your service. While I don't speak for 
each Secretary of State or Chief Election Official in our 
country, I express our appreciation for the election specific 
appropriation from the CARES Act. In Tennessee, these dollars 
have been instrumental in providing for additional ballot 
scanning equipment, larger ballot boxes, absentee envelopes, 
hand sanitizer, PPE, worker recruitment, and public outreach.
    Tennessee is also one of the fortunate states that was able 
to meet the necessary match requirement for these funds. I 
would humbly ask if there is an additional round of money 
appropriated for election administration of the upcoming 
election, that those funds not have a match requirement and 
also be free of additional Federal mandates requiring states to 
change the manner and method of casting of votes. I have 
confidence that each of you cares deeply about the ability of 
our states to conduct elections, and I hope you will continue 
to respect each state's authority to conduct elections in a 
manner that has or will work in their respective states. It 
would not be appropriate nor do we need to Federalize the 
administration of our elections.
    What works in Tennessee may not work in Colorado, Oregon, 
or Missouri and vice versa. We must continue to understand that 
one size does not fit all when it comes to elections. I am sure 
you are interested in learning about our preparations to 
conduct the current and upcoming elections during COVID-19. In 
mid-March we began working to purchase necessary items such as 
absentee ballot envelopes that we anticipated could be subject 
to supply chain issues and we set up working groups of local 
and state election officials along with private industry 
partners to develop our COVID-19 election contingency plan. We 
also had health experts review the plan and participate in 
statewide training calls.
    The result was a detailed 85-page election plan that 
thought through every possible step of the election process, 
including how to reduce the touch points in the election 
process, sanitization of polling sites, increasing the size and 
number of early voting polling sites as well as their hours of 
operations, and recruitment of additional poll officials. The 
health and safety of poll officials and Tennessee voters has 
been of utmost importance to us through our planning process.
    Our ``Be a Patriot, Become a Poll Official'' campaign 
yielded over 3,100 new poll officials, which shouldn't come as 
a surprise given Tennessee's recognition as a volunteer state. 
Specifically, our new poll officials will help us fill the gap 
of poll officials who may not want to work during this election 
cycle this year. Building a new bench of new poll officials 
will also help in the future since our average poll workers are 
over 65 years of age. We have put an emphasis on recruiting 16 
and 17 year olds this year.
    We believe this will encourage our young people to be 
civically engaged the rest of their lives. There has been a lot 
of conversation nationally about mail-in ballots. While over a 
period of years and decades some states have moved to a system 
of mailing ballots to each registered voter, most states have 
continued to primarily utilize in-person voting to conduct 
their elections. Prior to a recent court ruling, which is under 
appeal, more than a third of Tennessee's registered voters were 
eligible to request and cast an absentee ballot under 1 of 14 
different excuses provided by Tennessee law. Tennesseans love 
to cast a ballot in-person. Historically, over 98 percent of 
Tennessee voters cast a ballot during Tennessee's robust early 
voting period or on Election Day. During the average 
Presidential election, over 60 percent of the votes will have 
already been cast during early voting.
    Tennessee is a state that has built our election 
infrastructure around our voters' habits of voting in person. 
Last Friday, our early voting period began, and I traveled to 
10 counties to observe early voting as well as how our counties 
were meeting the challenge of administering elections during 
the current pandemic. Voters are coming to their voting sites 
with confidence and enthusiasm to vote in these elections, and 
without fail they lauded the precautions and efforts made by 
our state and local election officials to ensure the health and 
safety of our voters and poll officials.
    Additionally, when it comes to mail-in ballots, we can mail 
out ballots in a timely fashion and voters can return them in 
what they deem is timely to ensure their return by Election 
Day. However, we have no control over the operations of the 
United States Postal Service. Each election year, without fail, 
counties mail ballots that are never returned or that are 
received weeks after Election Day. Now, recent reports of 
operational issues with the United States Postal Service cause 
an even greater erosion in confidence in the ballots cast by 
mail. Whether it is the timely delivery of these ballots, the 
dumping of ballots in the lobby of apartment complexes in New 
Jersey, a voter registration application being sent to a cat in 
Georgia, or the recent ballot harvesting issues in North 
Carolina, and even in Tennessee where a voter's absentee ballot 
was mailed to her on the day she passed away and somehow the 
ballot was returned, it remains true that the most secure and 
private way to cast a ballot is through in-person voting.
    In the state court system in Tennessee, advocates for by-
mail voting persuaded the court that voting safeguards existing 
under current Tennessee law should help prevent voter fraud. 
Interestingly enough, in Federal court, advocates for by-mail 
voting were asking the Federal court to weaken the same 
safeguards that advocates in the state court cited as being 
effective safeguards. Also, the emphasis the U.S. Senate and 
the current Administration placed on security and preparedness 
has yielded dividends. As most of you are aware, the morning of 
our Presidential preference primary in March, devastating 
tornadoes struck downtown Nashville and Davidson County along 
with the neighboring counties of Wilson and Putnam.
    As part of our ongoing preparedness efforts, we have 
participated in tabletop exercises from the Harvard Belfer 
Center as well as the United States Department of Homeland 
Security. Our state election officials have taken this practice 
and conducted similar exercises with our local election 
officials. The practice of a tornado striking a polling place 
came to real-life for us in Tennessee.
    I am happy to give more detail or answer any questions you 
may have regarding our response to these natural disasters. In 
closing, thank you for your support and please continue to 
respect each state's authority to administer elections in the 
manner and method that their states deem best to ensure the 
integrity, participation, and confidence in our elections. 
Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hargett was submitted for 
the record.]
    Chairman Blunt. Thank you, Mr. Secretary. Secretary Warner.

   OPENING STATEMENT OF HONORABLE MAC WARNER, WEST VIRGINIA 
                       SECRETARY OF STATE

    Mr. Warner. Chairman, members, and staff, thank you for 
inviting me to testify about West Virginia's very successful 
primary election. We were so successful because we learned from 
others, had constant communications, and we provided options. 
We learned from other states that poll worker recruitment was 
critical, uniformity is helpful, absentee ballots are necessary 
but challenging. We had constant communication nationally with 
the Department of Homeland Security, DOJ, Congress, and the 
National Association of Secretaries of State.
    At the state level, with our fellow Secretaries, our 
Governor, West Virginia Attorney General, the Fusion Center, 
and National Guard. At the county level, with clerks who 
stressed flexibility and with Harvard's Belfer Center that 
helped prepare officials for most any disruption. West Virginia 
provided options. We offer more ways to vote than any other 
state. We offer the gold standard of in-person voting at the 
local precinct with trained poll workers, during early voting 
and on Election Day. We provide absentee voting using the mail, 
and we lead the Nation with e-voting. In 2018, we enabled 
military and overseas voters to vote electronically. West 
Virginians in 30 countries use mobile devices to vote in the 
general election.
    One voter in West Africa cited a 3-day drive from the U.S. 
embassy for mail. She noted that mail was neither practical nor 
guaranteed. She was the envy of her peers and she loved her e-
voting experience. This year, our legislature unanimously 
extended e-voting to people with certain physical disabilities. 
175 voters from 19 countries and 20 voters with physical 
disabilities cast e-votes in our primaries. In West Virginia, 
it is easier to vote and harder to cheat than ever before, but 
providing options does raise challenges. Let me address those 
challenges. COVID-19 is the elephant in the room in the 
upcoming election. Due to the virus, our Governor issued a stay 
at home order that overlapped with our primary.
    Accordingly, everyone had a medical reason to vote 
absentee. For uniformity, we sent applications to every 
registered voter and half of the ballots cast were absentee. 
The stay-at-home order is now lifted and county clerks have 
asked that we return to voters initiating requests to vote 
absentee consistent with state law. We must now educate voters 
on election changes as they occur with this unpredictable 
virus. Another challenge is poll worker recruitment. At the 
state level, we recruited nearly 400 volunteers during the 
primary and we have started a fresh campaign for the general. 
America needs to unite around the duty to work the polls in 
November.
    As to funding, we appreciate the Federal HAVA and CARES 
support. West Virginia used all of its 2018 HAVA funds and we 
will allocate $2.4 of our $4 million 2020 HAVA funds next week. 
We used $1.6 million of our CARES money in our primary, leaving 
$2.1 million for the general. The CARES allocation was about 
right for our state and every dollar went directly to local 
election officials. While virus funding is not an immediate 
concern, a number of counties do face equipment upgrade issues. 
Now to lessons learned. People like having options--voting 
options as they do not know how the virus will play out. Even 
during the pandemic, half of the people voted in person. As to 
e-voting, nearly every overseas voter would have been 
disenfranchised due to postal disruptions. They loved being 
able to vote electronically.
    Today, I renew my call to congressional leadership as well 
as the Department of Defense to provide e-voting to all 
deployed military and overseas voters. Using the mail is one 
pandemic option but mail is problematic. Issues include lack of 
postmarks, lost items, delayed delivery, and increased 
opportunities for fraud such as forgeries, intimidation, and 
ballot harvesting. A significant absentee ballot issue is over 
voting. One county had 1,017 over votes, resulting in those 
votes not counting. That would not have been possible with 
electronic marking devices and in-person voting.
    Next, initiate anti-fraud task forces as soon as possible. 
When issues arose, our task force with the U.S. Attorney, FBI, 
State Police, and West Virginia's Attorney General was 
extremely effective. Finally, flexibility. County clerks 
recommended and our Governor issued executive orders that 
provided much-needed flexibility, such as giving clerks more 
than 24 hours to mail absentee ballots, I provided flexibility 
by allowing early poll worker training, COVID-19 as a reason to 
vote absentee, early processing of absentee ballots, clerks to 
change polling locations, and reduced number of poll workers. 
Flexibility enabled clerks to use common sense based on 
manpower, equipment, and timing restrictions.
    In conclusion, West Virginia showed that we as a Nation can 
hold a safe and successful election during the pandemic. 
Extensive voter education is necessary as people must be 
informed of deadlines, process, and to correctly mark ballots. 
They must also understand that absentee ballots delay results 
reporting.
    In West Virginia we covered our bases. We had numerous 
voting options, officials had flexibility to operate within the 
law, and polls were accessible. We got it right and we did it 
safely. West Virginia did not have a single reported case of 
COVID-19 due to in-person voting. This concludes my briefings 
and West Virginia stands ready to share our story and answer 
questions at the appropriate time. Thank you.
    [The prepared statement of Mr. Warner was submitted for the 
record.]
    Chairman Blunt. Thank you, Mr. Secretary. Mr. Stream.

   OPENING STATEMENT OF RICK STREAM, REPUBLICAN DIRECTOR OF 
             ELECTIONS, ST. LOUIS COUNTY, MISSOURI

    Mr. Stream. Good morning, Senators. It is an honor to be 
here this morning. Thank you Senator Blunt for inviting me to 
testify. I am happy to be here because the St. Louis County 
Board of Elections is proud of the work we have accomplished 
providing secure, accurate, and fair elections during this 
unprecedented time. The St. Louis County Board of Elections, as 
well as all 116 election authorities in the State of Missouri, 
is governed by state statute. St. Louis County staffing is bi-
partisan with equal members of both major parties working side-
by-side to ensure accurate, efficient, and fair elections. The 
Board is governed by four commissioners, two of each party, 
nominated by the Governor and confirmed by the State Senate.
    Two bi-partisan directors run the day-to-day operations. 
St. Louis County has one million residents and 750,000 
registered voters. It is, by far, the largest election 
authority in the State of Missouri. The St. Louis County Board 
of Elections has taken the following measures during the COVID-
19 pandemic to ensure the safety of voters and poll workers 
while providing an opportunity for all voters to cast their 
ballots. The Election Board has remained open to meet our 
statutory responsibilities to voters and candidates. Using St. 
Louis County Health Department guidelines, the office 
established protocols to continue working while keeping our 
employees safe and the election process moving forward. 
Employee temperatures are taken immediately in the morning. 
Employees socially distance with barriers in place where 
necessary. Employees wear masks continuously and gloves when 
handling paper.
    All office surfaces are wiped down twice a day and 
employees have wipes for their work areas. These safety 
measures are also taken with any public interaction. In a 
normal county-wide election, St. Louis County employs 
approximately 3,200 poll workers to fully staff the polls. 
These workers are trained so that they are current on the 
latest procedures and laws. Because of the pandemic, the Board 
established new procedures for in-person training and developed 
online training courses which allowed many of our workers to 
take the class without leaving their home. We have recently 
moved exclusively to online training. At the polling places, 
all poll workers wear masks and gloves and are instructed to 
wipe down surfaces with alcohol disinfectant.
    Hand sanitizer is placed at each polling place for the 
voters to use and social distancing strips are placed on the 
floors. Because of the hesitancy of poll workers to work, 71 
percent of our poll workers are over the age of 60 and numerous 
cancellations of private polling places, the Board reduced the 
number of polling locations for the June election to 160 from 
the March 10th Presidential preference primary level of 360. We 
were able to adequately staff at the reduced level and avoid 
long lines that plagued other election authorities around the 
country.
    Our plan is to increase the number of polling places to 200 
for the August statewide primary and then a larger number for 
the November Presidential election. Nearly all polling places 
are in public buildings within a 7-minute drive from the 
nearest polling place or public transportation stop. Last year, 
after a rigorous request for proposal process managed by our 
staff, our Board of Commissioners purchased new voting 
equipment. We determined that the ballot on demand system is 
the most secure method available. That decision has had an 
immediate effect on our ability to protect voters during the 
pandemic. There are no pre-printed ballots. The paper ballot is 
generated at the polling place based on the voter's name and 
address. Except for a brief initialing by two gloved poll 
workers, the only person touching the ballot is the voter. The 
system was purchased for $3 million less than the touch screen 
predecessor purchased 13 years earlier.
    This year, Governor Mike Parson signed a new voting law 
into effect for the remainder of 2020. It provides a specific 
absentee voting option related to COVID-19 and adds a mail-in 
ballot option. Our commissioners have sent a letter to voters 
explaining their voting options. To date, our office has 
experienced a fivefold increase in the number of absentee 
ballot requests. Because of the rapidly changing circumstances 
and our desire to communicate those changes to our voters, we 
are incurring unprecedented costs. We hope to be reimbursed 
from the CARES Act.
    The Missouri Secretary of State's Office has provided 
resources for COVID-19 related expenses for personal protective 
equipment and supplies. While our expenses are going up and are 
unpredictable for the remainder of the year based on the 
trajectory of the pandemic, income and sales tax resources 
coming into the state and county have plummeted. Additional 
Federal help might be necessary to meet these demands. The St. 
Louis County Board of Elections continues to look for ways to 
be fiscally responsible and nimble while trying to improve our 
service to our voters and protect the election process during 
this unprecedented time.
    [The prepared statement of Mr. Stream was submitted for the 
record.]

    Chairman Blunt. Thank you, Mr. Stream. Ms. Clarke--Ms. 
Clarke.

 OPENING STATEMENT OF KRISTEN CLARKE, PRESIDENT AND EXECUTIVE 
 DIRECTOR, NATIONAL LAWYERS' COMMITTEE FOR CIVIL RIGHTS UNDER 
                              LAW

    Ms. Clarke. Chairman Blunt, Ranking Member Klobuchar, and 
members of the Senate Committee on Rules and Administration, my 
name is Kristen Clarke and I serve as the President and 
Executive Director of the Lawyers' Committee for Civil Rights 
Under Law. Thank you for the opportunity to testify today on 
the actions we can take to ensure that states hold safe and 
fair elections during the pandemic this season.
    The Lawyers' Committee has been at the forefront of the 
battle for equal rights since it was created in 1963 at the 
request of President Kennedy to enlist the private bar's 
leadership and resources in combating racial discrimination. To 
accomplish our mission, the Lawyers' Committee has been a 
leader in many of our Nation's most seminal voting rights 
battles and we also lead Election Protection, the Nation's 
largest and longest-running nonpartisan voter protection 
program anchored by the 866-Our-Vote hotline.
    Through our work, we have had a frontline view of the ways 
in which the pandemic has impacted our elections nationally. 
The evidence and problems experienced by voters during the 
primary season makes clear that many states simply are not 
ready: long lines in Wisconsin and Georgia, poll site closures 
across Pennsylvania and Kentucky, confusion regarding the rules 
for accessing absentee ballots in Ohio, poll worker shortages 
in Florida, Texas, and Illinois.
    As we brace for historically high levels of participation 
this November, I urge this Committee and Congress to provide 
the $3.6 billion in funding that the states and our local 
communities desperately need to be able to safely and 
effectively administer elections for the duration of the year. 
It is critical that Congress also set certain minimum baseline 
protections for voters across the country for November, 
including at least 2 weeks for early voting, no excuse absentee 
voting, and safe, secure, and accessible voting options on 
Election Day. Nothing less than the fate of our democracy and 
the lives of your constituents is at stake.
    We have been sounding the alarm about the dangers to 
voters, poll workers in our communities throughout the primary 
season as many states either failed to adequately respond to 
the threat of COVID or lack the resources to appropriately 
respond. Months into the pandemic, many states and counties are 
still unprepared to safely handle the volume of people opting 
to vote in person, and several states failed to provide 
requested mail-in ballots in a timely manner, leading to mass 
rejection rates. Voters of color, our senior citizens, people 
with disabilities, Native Americans, and first-time voters are 
disproportionately disenfranchised by our Nation's collective 
failure to fully confront the challenges posed by COVID.
    For people forced to vote under conditions that don't 
comply with public health guidelines, there are real risks to 
their health and the health of their families. No one should 
ever have to choose between their health and their ability to 
exercise their right to vote. The $400 million allocated in the 
CARES Act was an important first step, but it is a fraction of 
what is truly needed.
    As COVID rates continue to spike, the changes facing 
election officials continue to intensify. Even if those funds 
don't reach states and localities until August or September, 
states will be able to immediately put those funds to use to 
hire poll workers, purchase PPE and cleaning equipment, print 
mail-in ballots, procure postage, and conduct voter education 
and outreach. Ensuring access to the ballot during a pandemic 
is a common-sense principle that enjoys bipartisan support.
    The Lawyers' Committee and our partners have heard from 
officials on their efforts this season. Governors from both 
parties have expanded access to vote by mail to all people in 
states as diverse as New Hampshire, Maryland, Alabama, and 
Ohio, and during the past few months, Governors, Secretaries of 
State, and election officials have learned from states like 
Colorado, Washington, Utah and Hawaii, where elections have 
largely been conducted by mail prior to the pandemic. Expanding 
voting by mail and in person is achievable and critical for our 
democracy. States simply need the support from Congress to do 
it.
    I want to close by remembering your colleague and our 
Nation's hero Congressman John Lewis. Congressman Lewis devoted 
his life to fighting for the right to vote. He continued that 
all the way through his final months of his life, presiding 
over the House vote to restore the Voting Rights Act in 
December. In his words, ``To make it hard, to make it 
difficult, almost impossible for people to cast a vote is not 
in keeping with the democratic process.''
    It is my hope that Congress will restore the Voting Rights 
Act, our most important Federal civil rights law, and carry 
forth the legacy of Congressman Lewis by taking action now to 
ensure access to the ballot for all Americans during the 
pandemic. During one of our Nation's gravest crises, I urge you 
to provide the $3.6 billion in funding needed for states and 
localities to get it right and to ensure that every voter has 
access to vote by mail and at least 2 weeks of early voting 
this season. Thank you.
    [The prepared statement of Ms. Clarke was submitted for the 
record.]
    Chairman Blunt. Thank you, Ms. Clarke. I appreciate the 
Members that have attended. We have had Members here, number of 
Members here, others virtually attending. Let's try to limit 
our questions to 5 minute rounds and we will have as many 
rounds as we have time to before those votes start right after 
noon and maybe even into that space if needed.
    Mr. Stream, you said the Governor had signed new 
legislation. I have really two questions there. What were some 
of the new things that that legislation did in our state? Two, 
were those laws in effect for the spring elections that were 
held a little late in June or are they going into effect for 
the first time in the August elections?
    Mr. Stream. Yes, the Governor did sign that bill into law. 
It did not take effect for the June election, which was 
actually the April general municipal election, which was 
postponed until June, but it does take effect for the statewide 
primary which occurs in less than 2 weeks now, and of course 
for November, it will be in effect, too. What the new law does 
is it expands the options for voting absentee. It adds a COVID 
related option and what that does is it is for people who have 
contracted or are at risk of contracting COVID, it allows them 
to vote absentee and there are categories within that option. 
If you meet any one of these, you are considered to be at risk 
so you can vote absentee in this way. You have to be at least 
65, live in a long-term care facility, have a serious heart 
condition, have chronic lung disease or asthma, or are 
immunocompromised, chronic kidney disease or on dialysis, have 
liver disease or diabetes.
    For this particular way to vote absentee, you do not need 
to have your ballot notarized. Most of the other reasons that 
we have in Missouri for voting absentee, you do have to have it 
notarized. There is one other non-notary option that we have 
had for a long time. If you are incapacitated due to illness or 
disability or you are caring for somebody who is incapacitated 
due to illness or disability, then you do not need to get your 
absentee ballot notarized. For all the other reasons, absence 
on Election Day, employment by election authority, you do have 
to get it notarized.
    The other part of that bill that became a law was the mail-
in ballot option and this is open to any voter, not just people 
who may feel threatened by COVID or anything like that, but 
this is open to any voter. It is a mail-in ballot. It must be 
requested in person or in writing to the Election Board and the 
ballot must be returned by mail, and that ballot must be 
notarized. Those are the main differences that were 
incorporated in this new----
    Chairman Blunt. When would you have to receive that ballot 
to count it?
    Mr. Stream. You have to receive the ballot to count it by 7 
p.m. on Election Day.
    Chairman Blunt. No postmark issue after the election?
    Mr. Stream. No.
    Chairman Blunt. It has to be there by 7 p.m. on Election 
Day?
    Mr. Stream. Again, the legislature decided to do it that 
way. That is the way all of our absentee balloting has been in 
the past, that it has to be received into our office by 7 p.m. 
on Election night.
    Chairman Blunt. Did you see any postal concerns in the June 
election or you having any concerns about how the Post Office 
will participate and function in this new demand for ballots in 
August and November?
    Mr. Stream. Well, to be honest with you, Senator, we have 
had problems with the Post Office since I have been in this 
office for three and a half years. The delivery times are less 
than optimal for sure. We have even proposed having one of our 
employees work in the Post Office in our local community of St. 
Ann to try to speed up the process but to no avail. We are 
concerned about that. We have a tremendous number of absentee 
ballots that were processed for the June election. About 45 
percent of our total vote was absentee for the June election. 
Normally, it is 10 percent.
    For August, it is going to be even higher than that. We 
have, in office right now, over 86,000 absentee applications. 
The ballots are being mailed out to the voters and it is going 
to be a monumental effort to get those processed. We will get 
it done, but the Post Office is a very difficult situation for 
us right now.
    Chairman Blunt. How are you going to count those ballots 
that come in in those big numbers Election Day? I know in New 
York I think the primary was the 23rd of June and we still 
don't have all the results. Are you doing anything to prepare 
for the volume that you wouldn't have dealt with before and 
what are you doing?
    Mr. Stream. Well, we have had to hire a lot of bipartisan 
temporary teams to help us process the applications. We will 
have the same type of bipartisan teams to process the ballots 
when they come back in. What we do is, we have a state law that 
allows us to prepare the ballots 5 days in advance. Any ballots 
that we have in, that have been checked to make sure that the 
signatures match, those ballots are then prepared starting 5 
days in advance. What that means is they are opened, the 
ballots are laid out, and we are able to count them quickly on 
Election Day and results are--usually for absentee ballots, 
like we did in June, we had the absentee ballot returns out by 
7:30 p.m.
    Chairman Blunt. Thank you, Mr. Stream. Senator Klobuchar.
    Senator Klobuchar. Thank you very much. Thank you for your 
testimony. Thank you very much, Ms. Clarke, for you mentioning 
Congressman Lewis and his work that we must respect not just in 
words, but in action. Ms. Clarke, I thought just to get down to 
the nitty-gritty of what we are facing right now in the HEROES 
Act as we consider some version of it in the Senate, you talked 
about how there is still time to purchase equipment in terms of 
personal protective equipment for people who are working at the 
polls, postage, that is not something you have to necessarily 
get a year ahead of time, we all know that, envelopes.
    Some very practical things that we can do in two ways. One 
is I have a letter here from the Secretaries of States, the 
National group asking for some changes to that original $400 
million and I appreciated Senator Blunt's openness to looking 
at that in this package as well as other Republicans. The 
second is additional funding. As you said, this is just a 
fraction of what we need when we look at the enormous needs of 
changing the voting patterns, which even if you wanted to not 
change them, I think Americans are very well versed in the 
dangers of this disease. That is why we are seeing the voting 
by mail in record numbers. Could you talk about how actually 
even at this date we can help local officials by getting 
additional funding?
    Ms. Clarke. Thank you, Senator, for that question. We have 
been engaging with election officials across the country and 
many of them are expressing grave concern about their dire 
budget situations. We know that the country is experiencing an 
economic downturn, that states are wrestling with high 
unemployment rates and more, and so adequate funding to meet 
the needs states did not anticipate here has been critical and 
a concern that we are hearing broadly from the officials that 
we have engaged with.
    Senator Klobuchar. Again, thank you, Mr. Stream. This 
notion that there is still time to buy protective agreement--
protective equipment and help with tabulators, scanners, all 
these things we are going to need as we see this shift because 
of the work that you have done in your jurisdiction. Could you 
talk about how that would be helpful?
    Mr. Stream. Thank you, Senator. We, due to the actions of 
our Board of Commissioners, they directed our directors to go 
out and purchase PPE very early in the game, not only to 
protect the employees in the office but the poll workers. So 
we, on our own, we went out and purchased a lot of that 
equipment before CARES was passed. We hope we can be reimbursed 
for that, but we knew that we needed to make sure that our 
polling places were safe for the voters to come into and for 
the poll workers to work in so that is why we purchased all of 
that equipment ahead of time.
    Senator Klobuchar. I appreciate that but it appears that 
the position of the National Secretary of States Association is 
they do want to get some additional money because of the 
problems with state budgets across the country for voting. 
Would that be fair?
    Mr. Stream. I could only speak for St. Louis County. I 
don't want to speak for anybody else, but as the Chairman 
knows, in Missouri, counties are responsible for paying for the 
election operations in their county. St. Louis County 
Government is responsible for paying for our election costs. We 
all know that the counties and the states are suffering badly. 
I think that it would be a correct statement to say that they 
need additional financial help.
    Senator Klobuchar. Thank you. I appreciate that. Ms. 
Clarke, do you want to add to your statement? Just how this has 
affected communities of color across the country the pandemic, 
of course we know in general but also in particular the voting 
and the need to keep polling places open earlier and the like 
so that everyone has a right to vote?
    Ms. Clarke. Yes. Thank you, Senator. Georgia provided a 
powerful example of the way that the pandemic has upended our 
elections and had a particularly stark impact on African-
Americans and people of color, in particular. Georgia is a 
state that has been hard hit by the pandemic. However, African 
Americans are dying and getting infected at disproportionately 
higher rates.
    This primary in Georgia, during the primary election, we 
saw long lines in several counties that were the result of 
malfunctioning poll equipment, insufficient numbers of poll 
workers, and many voters who did not receive their absentee 
ballots in time in part because the state secured an out-of-
state vendor that produced a number of errors. We had to go to 
court to get poll hours extended, but no doubt this is a season 
where we should be mindful of the pandemic's disproportionate 
impact on people of color, which makes it all the more critical 
that we work to get it right and ensure access for all 
Americans this season.
    Senator Klobuchar. Thank you very much. Just in closing in 
my questions, Mr. Chairman, I mentioned ahead of the hearing we 
have had thousands of Americans write to us asking Congress to 
provide resources to states to make it safe to vote.
    One letter is signed by more than a thousand public health 
officials and medical professionals and doctors, others are 
from bipartisan groups of election officials, as I mentioned, 
who are asking for more funding and to remove the 20 percent 
match from the original money in the CARES Act funding. 
Disability groups and groups devoted to protecting voting 
rights for minority populations have also written. I ask 
unanimous consent that we enter these letters on the record.
    Chairman Blunt. Without objection. Senator Alexander.
    [The information referred to was submitted for the record.]
    Senator Alexander. Thanks, Mr. Chairman and Ranking Member 
Klobuchar. Secretary Hargett, welcome. Let me talk to you about 
Tennessee and how easy it is for voters, or not, to cast 
ballots. You have, in your time, made it easier to register to 
vote online. Tennessee has 3 weeks of early voting and now we 
have gotten into a pattern, as you mentioned in your statement, 
about a lot of us do vote early and I found this year the 
absentee voting opportunity pretty simple to follow--the 
ballots were available early and I mailed mine in early.
    Since the election, our August primary voting started last 
Thursday--Friday in person. What are you seeing in terms of 
lines, safety, ease of voting? Are both Democrats and 
Republicans, so far as you can tell, having an opportunity to 
vote? Are they waiting in long lines? Is turn out higher than 
usual? What are you seeing in terms of absentee ballots and 
early voting so far this election?
    Mr. Hargett. Well, thank you, Senator Alexander and I would 
be remiss if I didn't begin by thanking you for your fantastic 
service to the State of Tennessee and our great Nation through 
your exemplary career.
    Senator Alexander. Thank you.
    Mr. Hargett. We have done a lot. When you look at online 
voter registration, we now have crossed about 850,000 
transactions of people who registered to vote online, or 
updated their voter registration online, also a voter app that 
allows people to know where their nearest early voting site is, 
where their Election Day voting site is, to be able to see a 
sample ballot so when they walk into the polls it is not the 
first time they have seen their unique ballot.
    I did mention earlier that I had been--I went to ten 
counties during Friday and Saturday, and I am scheduled to hit 
several more Thursday or Friday and Saturday this week to see a 
couple things, number one, what the response was of voters and 
number two--I should say 1(a) probably, what is the response of 
our poll workers themselves? Are we are we adhering to the 
protocols? Are we taking the necessary safeguards? I am so 
impressed with our Coordinator of Elections Mark Goins and our 
95 county election commissioners around the state who have 
taken this opportunity to show that they can stand and deliver 
in this difficult environment, and utilizing necessary PPE.
    Think about all the touch points of an election when you go 
to vote, even down to making sure the same person doesn't 
utilize the same pen twice, that you are regularly sanitizing 
all the possible touch areas. I think about that from a poll 
worker and a voter standpoint, and I specifically made a great 
effort in all ten counties. I went to ask voters, what was your 
experience? Were you concerned? Do you feel like this was a 
safe place to be? Is there anything you would do different?
    Without fail every person said ``I felt very safe coming to 
vote. I wanted to make sure I came to vote early. I wanted to 
vote in person. This way when I touch that button or I fill out 
that bubble sheet, I know that my vote is going to be 
counted.'' You ask about lines, you know, we saw as you will in 
any election regardless of what part of town you go to, what 
part of the state you go to, on the first day of early voting 
when those polls first open, you are going to see a little line 
there.
    But we also encourage people to try and spread that out 
through social distancing and by recognizing that not everybody 
has to show up at the very same time. If you can pick a slower 
time of day at 2 or 3 in the afternoon, you know, you are free 
to do that. We encourage that. We think----
    Senator Alexander. Okay, I have got about 1 minute left in 
my time. Let me ask you----
    Mr. Hargett. Sorry, Senator.
    Senator Alexander. What about turnout? Is it higher this 
year? What is your estimate of the number of the percentage of 
Tennesseans who will vote in the August primary either early or 
by absentee ballot?
    Mr. Hargett. We anticipate you are going to see about 60 
percent of people who will vote absentee or early. At this 
time, it appears that turnout is up, but what we don't know is 
that a substitution effect of maybe some people who are going 
ahead and voting early because we have advertised it more 
heavily this time around or taking advantage of absentee 
voting----
    Senator Alexander. Can you tell whether the early voters 
are Democrats or Republican voters?
    Mr. Hargett. It appears to be pretty balanced out. That, 
you know, honestly, Senator, I look to see how Tennesseans are 
doing. I really don't look at the numbers and try to figure out 
whether Republicans or Democrats are voting. I just want to do 
right by all Tennesseans.
    Senator Alexander. What--well I have 9 seconds. Do you see 
any real obstacles to someone having an opportunity to vote?
    Mr. Hargett. No, sir, I don't. I think we have got ample 
early voting. We are doing everything we can to make sure that 
we have a safe and secure way for them to cast their vote.
    Senator Alexander. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator. Senator Udall.
    Senator Udall. Can you hear me?
    Chairman Blunt. Yes.
    Senator Udall. Great, thank you. Thank you, Ms. Clarke and 
Secretaries Warner and Hargett and Mr. Stream for joining us 
today and really appreciate Chairman Blunt and Senator 
Klobuchar for holding this hearing. I cannot stress how much is 
at stake in the fast-approaching general election this 
November, and the urgent need for an additional $3.6 billion 
for emergency election funding. To prepare for today's hearing, 
I reached out to the New Mexico Secretary of State Maggie 
Toulouse Oliver who is the current President elect of the 
National Association of Secretaries of State.
    During New Mexico's recent June primary election, there was 
a record turnout and over 65 percent of votes cast in that 
election were absentee, substantially more than the usual 10 to 
20 percent. This turnout from my home state demonstrates that 
we can protect the right to vote and public health at the same 
time. While this is good news, I was troubled to find out that 
the full amount that New Mexico received from the CARES Act for 
this year's primary and general elections, $4 million, had to 
be spent solely on the primary.
    New Mexico is currently anticipating a $6 million shortfall 
for necessary expenditures for the upcoming general election. 
Voters should not be forced to choose between their 
constitutional right to vote and their health and safety. As a 
Senator from a state with a native population of 10 percent and 
as lead Democrat on the senate committee on Indian Affairs, I 
am particularly concerned with Native Americans' safe access to 
the ballot box. Due to the pandemic, states are instituting new 
measures that purportedly ensure that voters may exercise the 
franchise safely, but if you are a Native American voter in 
Indian Country, odds are the barriers to casting your vote in 
2020 are not much better than they were generations ago, 
enhanced voting procedures notwithstanding.
    Prior to COVID-19, tribal communities faced unique 
obstacles to exercising their right to vote, including polling 
site closures, stricter voter ID laws, and increased use of 
absentee ballots, leaving Native American voters systemically 
disenfranchised. While I strongly support making voting by mail 
easier to keep communities safe from COVID-19, Indian Country 
faces unique barriers to vote by mail that must be addressed. 
Native voters in Indian Country often don't have the physical 
mailing addresses and instead use Post Office boxes to receive 
their mail.
    This can require driving long distances to U.S. Post 
Offices with limited operating hours. On top of that, this last 
primary election season, we saw some states drastically 
reducing the number of polling sites in Indian Country without 
consulting with tribes, making it all the harder to vote. Basic 
voting infrastructure is critical to ensuring that Native 
American voters can exercise their constitutional right to vote 
within their own communities. It is disturbing yet hardly 
surprising that in vote by mail, and other election decisions 
are being made that undermine native communities' access to the 
ballot.
    My bill, the Native American Voting Rights Act, provides 
significant solutions to ensure that the Native vote is not 
lost. Ms. Clarke, your organization has conducted calls that 
highlight the national and tribal voting issues. What specific 
actions should Congress take to make sure that tribal 
communities have equal and ready access to the polls?
    Ms. Clarke. Thank you, Senator. What we have found in our 
experience is that Native American voters have unique issues 
when it comes to voting by absentee ballot. For example, in 
Utah, where it's 100 percent vote by mail, they neglected to 
think about the unique needs faced by Navajo speaking voters in 
that state. We filed a lawsuit against the state.
    Navajo speaking voters need in-person language assistance 
in order to cast a meaningful and effective ballot. Today, Utah 
accounts for that. There are unique supports in place for 
Navajo speaking voters in San Juan County, Utah. I do think it 
is important to be mindful of the unique language needs that 
certain voters of color face as we think about how to ensure 
full access for all communities this season.
    Senator Udall. Ms. Clarke, there is no one-size-fits-all 
solution to address the many challenges states are facing as we 
near Election Day, so why is it important to ensure that states 
have the resources to develop both robust in-person voting 
protocols and the infrastructure needed to vote by mail?
    Ms. Clarke. This is a unique season where everyone faces 
unprecedented obstacles. We think that there are three avenues 
that we need to provide. We need to provide effective open 
access to absentee ballots, we need to provide early voting 
opportunities to ease the strain that officials would otherwise 
face on Election Day, and we need to provide meaningful, 
accessible, safe, and secure in-person voting opportunities on 
Election Day itself. That I think is the formula to success for 
November.
    Senator Udall. Thank you so much. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator. If you have other 
questions, we will have another opportunity in a little bit. 
Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. Thank all of you 
for being here. Secretary Warner from West Virginia, I want to 
thank you for being here today. I am going to go straight to 
the funding question because you brought this up in your 
opening statement that West Virginia had received HAVA money 
and then CARES money for the primary and you said you had money 
left for the general.
    Can you--we have heard a lot about lack of resources, lack 
of dollars. It seems like West Virginia has had enough to meet 
the challenge, to make sure that we get the three parameters 
that Ms. Clarke has laid out, early voting, access to remote 
voting or absentee, and also a safe voting place. Can you speak 
to the funding aspects, Secretary Warner?
    Mr. Warner. I sure can. Again, I think that Congress has 
gotten it about right for the State of West Virginia. With the 
CARES Act, we used less than half of that for the primary. We 
still have over $2 million to use for the general. It is going 
to do us just about right. We held a ``clerks call'' with 
clerks in person and with a survey, we are in good shape for 
the CARES component.
    This is the virus component of the upcoming election. We do 
still have some counties that could use funding in the HAVA 
arena. We are in the process of going through that right now. 
This next week and for a 30-day period for the counties to 
submit applications. We expect at the end of that just over 
half of that HAVA 2020 funding will be used and then we will 
reopen that after the November election. Just understand how 
much work these clerks have to do, and we didn't want to 
overload them and try to push for people to spend that HAVA 
2020 money just to be spending it. We wanted to do it 
appropriately and we were using this election period to 
determine what is the proper use for that fund. Thank you, 
Senator----
    Senator Capito. Do you think--Yes. Let me ask a question 
Senator Alexander asked of his Secretary of State. Do you see 
any obstacles in our State of West Virginia that somebody 
couldn't have fair access to the ballot, to voting in this 
general election upcoming?
    Mr. Warner. None whatsoever. We have all the options and 
they all are important. It is important for the voter to 
determine what is the best way for him to cast a ballot and 
there have been no--there is no disenfranchisement. Everybody 
has access whether it is absentee voting by mail, in-person 
early on Election Day, or in those cases with the electronic 
voting. Those people are very excited about that opportunity.
    Senator Capito. Okay. Let me ask you about the HAVA money 
because I am on Appropriations and that was my subcommittee 
several years ago. I think we put--I might have the number, 
national number kind of in the general facility of over $300 
million. I think maybe next year for over $400, $500 million. 
Do you hold the HAVA money at the state or do you have to keep 
applying at the Federal level to the Federal Election 
Commission to get that money, and is that an ongoing process, 
and to your understanding, is there still money at the Federal 
level it has yet to be dispersed?
    Mr. Warner. Each state was given an allocation. There was a 
minimum allocation in the $3 to $4 million range. That is where 
West Virginia hit. All that money does go directly to the 
counties. We administer that through a HAVA board that reviews 
the applications to make sure appropriateness and to spread it 
across the state. Just it is in a first-come-first-serve, we 
take those applications on a first-come-first-serve, but we 
want to make sure that all the counties do have an opportunity.
    Senator Capito. The counties apply to you for the HAVA 
money from your allocation?
    Mr. Warner. Yes, that is correct. That is correct.
    Senator Capito. That is correct. Let me ask the Secretary 
of State of Tennessee, on your funding issues, are you finding 
yourself way underfunded to be able to have a safe and fair 
election in 2020 or how do you anticipate your financial 
situation in terms of meeting this challenge?
    Mr. Hargett. Well Senator, you know, without additional 
mandates from the Federal Government or through the courts, we 
feel good about where we are financially. However, if you know 
a certain--if a court decision were to require us to do 
absentee no excuse or universal vote by mail, that would be a 
game-changer for us. Those are things that we are having to 
think about but we feel like frankly the U.S. Government, you 
know, U.S. Senate, U.S. House of Representatives, the money you 
have given us in the past for Help America Vote Act, the 
security funds you have given us and now through this CARES 
Act, we feel pretty well situated in Tennessee.
    Senator Capito. Thank you. Secretary Warner, you mentioned 
that we had quite a turnout, I think, in our primary in June 
that was pushed for a month. A lot of that, half of that I 
believe was by absentee voter. I mean, do you anticipate that 
in the general again for the convenience factor?
    Mr. Warner. I think we are going to have pretty much the 
same turnout as we have had in previous elections. In the past, 
60 percent turnout range for the general election. Primary, we 
were in the 35 to 40 percent range, which is what we have 
typically. And, what you find is, it is like a balloon when you 
squeeze in one area and it expands in another. We allowed 
absentee voting and expansive views of that. We had lower 
turnout during early voting and on Election Day, but all in 
all, the voters determined what they are most comfortable with 
depending on the virus and find the best option for them, but 
everybody had that chance to vote.
    Senator Capito. Thank you. Thank you.
    Chairman Blunt. Thank you, Senator Capito. Senator King.
    Senator King. Thank you, Mr. Chair. As the red light went 
on, I remember the story from my days in law school. Someone 
asked Chief Justice Warren when you should stop when the red 
light came on and his answer was, in the middle of the word 
``if''. I am cognizant of the lights here. I have spent the 
last 8 years, almost 8 years, on the Intelligence committee and 
the last 4 years intensively studying the Russian interference 
in the election of 2016. I can assure you that the Russians are 
going to try and are trying to interfere in the election of 
2020. It is probable that the Chinese will. It is likely that 
the Iranians will. Possibly--possible that the North Koreans 
will.
    The problem with this challenge that we face is, and it 
goes to all of you who are working in the administration of our 
elections, they don't have to change votes. All they have to do 
is sow doubt. Doubt is the dagger in the heart of democracy. If 
people doubt the election results, if people doubt the fairness 
of elections, and that is a very high standard to meet. I think 
we just all have to be thinking about that as we approach all 
of these issues. For example, online voting. I am sympathetic 
to the needs of those who are overseas and to the disabled, but 
I think we need to be exceedingly careful about online voting.
    I just spent a year with the National Cyber Commission on 
cyber threats to the elections and other parts of our society, 
and there is no safe online voting system. There is none. I 
have not seen any evidence of a safe online voting system. I 
have seen lots of evidence to the contrary. To the extent that 
those are used to enable people who otherwise couldn't vote, to 
do so, we need to be extremely careful about how they relate to 
the rest of the voting system, whether somebody can use an 
online voting system for the disabled, for example, to get into 
the rest of the voting system, get into the voter data base. I 
think those are matters of exceedingly important concern. The 
risk of registration online.
    It seems to me, Mr. Chair, and as you always remind us, you 
were in effect a Secretary of State, we need to think about 
what is our responsibility, what are our powers, and ultimately 
these elections are going to be up to the states. The 
mechanics--so what do we have to do? We need to provide some 
insight and advice, which I just volunteered about online 
voting and the risk of malicious activity in connection with 
our elections. Secondly we do have to supply the resources, or 
we don't have to but we should. If we don't, particularly in 
the light of the COVID emergency, we are failing our 
responsibility and failing our voters. Ms. Clarke, you talked 
about long lines. Often, those long lines are in neighborhoods 
of color and where you place your voting places are important. 
These kinds of decisions are absolutely critical, but it is my 
belief and I don't know what the right number is, but it is my 
belief that there is a need for additional support for simply 
PPE for election personnel, for other techniques, for keeping 
the clerks of office open, for more early voting.
    All of those things are really critical. A third place 
where it seems to me, Mr. Chairman, we really have a 
responsibility, based upon all the testimony that we have had 
today, is the Post Office. There was $10 billion in the CARES 
Act as a loan to the Post Office. To my knowledge, it has not 
happened and yet the Post Office is facing imminent insolvency. 
September is the date that I have seen. Given that there are 
now nine states that predominantly vote-by-mail and many others 
who will see a great deal of additional voting by mail, we have 
to provide them with the infrastructure that votes by mail can 
be counted. If the Post Office can't process those and 
Secretary of State, one of our Secretaries of State said, you 
know, it has got to be in by the Election Day.
    Well, what if they physically can't meet that? Those people 
are disenfranchised. Mr. Chairman, I feel that that is 
something that we really have to attend to and we can't just 
skirt around the issue of the support for the Post Office 
because the president doesn't like their package rates. This is 
a matter of fundamental access to the ballot box for the people 
of America, and if the Post Office can't get the ballots to the 
clerks, then they are being disenfranchised.
    I have gone over my time. I didn't manage to get in a 
question, but I think these are some points that we really have 
to consider. Thank you, Mr. Chairman. I really appreciate your 
doing this hearing.
    Chairman Blunt. Thank you, Senator King. There will be 
another chance to ask questions if you have got more of your 
time. I would say that the Post Office, with all of these 
significant increase in ballots coming in is there all kinds of 
problems that are arising. I think I read an article yesterday 
where one state had put postage on the return envelope and 
apparently the Post Office often doesn't cancel prepaid 
postage.
    Those envelopes had no postmark, but the law required a 
postmark before a ballot could be counted, but I suspect will 
be a lot of litigation in any election that is close this year 
on many of these issues. When a ballot came in, was that--
should have been counted if it was postmarked, but it wasn't 
there by Election Day. Rick Stream is going to have a lot of 
those things to try to deal with.
    Senator King. But remember, Mr. Chairman, doubt is our 
enemy.
    Chairman Blunt. Well, I like--you know, doubt in the 
election. You are exactly right. People having confidence that 
what the results on Election Day that were arrived at was what 
people, voters actually tried to do on Election Day, is 
critically important, it is the fabric of the democracy and we 
have to be thinking about that all the time. Senator Cortez 
Masto. Still on--yes, there you go.
    Senator Cortez Masto. I am here. Yes. Thank you. Let me 
just say also, I would like to emphasize how important it will 
be for my home State of Nevada, for us here in Congress, to 
include the $3.6 billion for emergency election funding in the 
upcoming coronavirus package that we were negotiating now. You 
know, Nevada has been so hard hit by this pandemic and is 
facing a terrible budget shortfall. So are many states across 
the country. That is why I also believe we need to waive the 20 
percent funding match requirement that was included in the 
CARES Act election funds and provide that additional funding to 
our state and local Governments so they can ensure that the 
upcoming election is safe and accessible.
    I will say this is not a partisan issue. I know this is 
what Secretaries of State on both sides of the aisle are asking 
for, including Nevada Secretary of State Barbara Cegavske. I 
hope we can all work together to get this done. I do want to 
jump back to a conversation, Ms. Clarke, regarding the concern 
about access to the polls. There are many people that you 
talked about earlier, and I think it was with Senator Udall, 
that sometimes there is a language barrier, sometimes 
individuals need help.
    Can you talk a little bit about why, yes, I believe mail-in 
ballots are going to be key this election cycle, we want to 
keep people safe but give them the opportunity to also cast 
their votes and make them count. We also know there are people 
that sometimes need to show up in person. Can you talk a little 
bit about why we should still also have some form of in-person 
voting for individuals that might need to show up in person?
    Ms. Clarke. Yes, thank you, Senator, for that question. 
What we have found this season is that for some people the 
experience, the opportunity of voting in person is incredibly 
important.
    There are people who are willing to sadly endure those long 
lines on Election Day, even though they shouldn't have to, and 
many of them really can't afford to because they have jobs to 
return to or childcare needs that they are juggling. But there 
are many people who don't want to vote by mail and who want to 
get out and vote in person during early voting or on Election 
Day. Again, it is very critical that we provide those three 
avenues for voters to have a full range of options to exercise 
their voice this season.
    Senator Cortez Masto. Thank you. I know at least, and I 
have seen in my state as well for many reasons that we have 
talked about, but there are also people with disabilities that 
also it is helpful to be able to show up in person as well. Let 
me ask the Secretaries and Mr. Stream, I am curious, do any of 
your states require notarizations of the signatures from mail-
in ballots?
    Mr. Hargett. Our state does not, Senator.
    Mr. Warner. West Virginia does not either.
    Senator Cortez Masto. Okay, and----
    Mr. Stream. Senator, in Missouri, as I mentioned in my 
earlier answers, for five of the seven categories of absentee 
voting, notarization is required.
    Senator Cortez Masto. Okay, so how--okay, so thank you. 
Thank you for that. My question is, how do you ensure that 
individuals that may not have access or ability to get to a 
notary or even the photo ID that may be necessary, how do you 
still ensure that they have the ability to vote? Let me first 
ask you that question and then I will give you a real life 
example in my own family, that is why I bring this up.
    Mr. Stream. In St. Louis County, because the Missouri 
legislature has passed these laws and our job is to implement 
them, we are governed by the state laws. We have attempted to 
enlist the support of private citizens, organizations in St. 
Louis County to provide notarization services. They are readily 
available to people where they can drive up in their cars and 
present their identification and have their ballot notarized.
    Mr. Chairman mentioned the curbside voting. We also have 
curbside notarization. But it is basically the private sector 
and again a lot of citizen interest groups that are banding 
together to provide notarization for the documents for the 
categories in the absentee ballot process in Missouri that need 
a notarization.
    Senator Cortez Masto. Well, and I think that is important 
if that type of law is going to be passed, that we still get 
people the access to vote. Let me just, my grandmother, 
Mexican-American, felt so strongly about going to church every 
Sunday and voting. When she was no longer able to drive, which 
meant she didn't have a driver's license, it had expired, she 
walked to church and she walked to the local school to vote. 
Unless there is the ability for individuals to still have 
access to a notary or somebody, I don't even know how, if you 
don't have ID a notary is going to help--but if we don't make 
it available for individuals to be able to exercise their vote, 
she would be somebody that would not be able to vote and that 
is a concern that I have and I know that is something that you 
are trying to address as well.
    Let me just say thank you all for this conversation. I 
cannot stress enough how important it is for us to support you 
with the funding that is necessary into our states now and to 
really if we--I strongly believe we have to waive the match for 
the Secretaries of State so that we can get the money into the 
communities now more than ever to address and give everybody 
the ability to vote this election cycle. Thank you.
    Chairman Blunt. Thank you, Senator. Secretary Hargett, I 
think it was established--Senator Capito established the fact 
that in West Virginia the Secretary of State becomes the place 
to go to have to ask for HAVA assistance. Is it the same in 
Tennessee?
    Mr. Hargett. It is. All those HAVA funds flow through the 
state office down to the counties.
    Chairman Blunt. In HAVA, going back I think to 2000, we had 
a series of different kinds of requirements. I think the first 
HAVA money after 2000 had no match. Then there was a 5 percent 
match on some money that came later, and then a 20 percent 
match and then a 5 percent match again. Senator Klobuchar and I 
have talked about this a lot. I actually think there is some 
merit in the decisionmaking process to having some match, but I 
don't think it has to be a very big match to meet my sense that 
you have had to think about some money that you had to explain 
to the State legislature and others that you thought was worth 
putting on the table to get that 95 percent of the money that 
came from the Federal Government.
    We are going to talk through that consistent match, I am 
sure. I think we ought to go back and look at the money that 
you currently have available to you and maybe make that money 
more consistent in terms of time it has to be spent and give 
you more access to the money you already got, in addition to 
trying to determine the right amount of new money. You said, 
you mentioned, Secretary Hargett, the match is a challenge. Is 
any kind of match a challenge or is it the 20 percent match 
that was the challenge?
    Mr. Hargett. Well Senator, so for us, we had money in 
reserves and we used that as our 20 percent match so I did not 
have to go to the legislature. But I do speak on behalf of a 
lot of my colleagues on both sides of the aisle where their 
states were hardest hit and they didn't have reserve funds to 
go to and draw down the match to be able to draw the 80 percent 
of the CARES Act. I really speak on behalf of them. If, you 
know, I do believe there is something to be said for having 
some skin in the game, but also recognize we are in a very 
challenging time and different states have been hit differently 
and I know y'all have difficult decisions to make. I want to 
make sure that whatever we do, we don't place strings 
associated with any funds that come from you going forward.
    Chairman Blunt. Thank you, Secretary. Secretary Warner, do 
you have a view on the match or how your colleagues deal with 
that issue?
    Secretary Warner. I have heard the same concerns that 
Secretary Hargett has heard from colleagues. Again, here in 
West Virginia, we have been able to meet the match just fine. 
However, I do agree that without the matches it would be easier 
to get this money down to where it is needed and make those 
allocations. Actually, West Virginia has actually increased the 
match requirement on the counties for that skin in the game 
simply to make the funds go further, but I don't want to leave 
the impression that that should be imposed by Congress or on 
all the states. Each of us is able to speak for our own state. 
We are doing just fine in West Virginia. Thank you.
    Chairman Blunt. Secretary Warner, you are telling me in 
your application process, the match you require of local 
Government, you require local Governments to have a match to 
qualify for the funds that is even higher than the Federal 
match?
    Secretary Warner. That is correct. Again, that was simply 
to make those funds go further. We didn't know if we were--back 
in 2018, we were all looking at this Russian meddling and so 
forth and we wanted to make these funds go as far as possible 
with cyber security, equipment upgrades, and so forth. That is 
why we increased the match requirement on the counties, but I 
don't want to again leave you with the impression that that 
should be done by Congress. I like the idea of not having a 
match requirement by Congress. We can handle that at the state 
level. Thank you.
    Chairman Blunt. Ms. Clarke, what was the $3.6 billion? How 
is that number arrived at?
    Ms. Clarke. Thank you, Senator. The Brennan Center has 
helped to break down how that money would support states. $1.4 
billion would be needed to enhance vote by mail and the way 
that is implemented by supporting ballot printing, postage 
costs, drop boxes, electronic absentee ballot request 
processing systems, ballot tracking, staffing to handle the 
volume of ballots being requested, enhanced technology, 
processing and scanners. $271 million would be used to support 
in-person voting measures, so that is staffing polling sites 
and measures to ensure social distancing compliance, etc.
    $252 million would go toward supporting voter education in 
states. There are many people who are navigating absentee 
voting for the very first time and need help and instruction to 
get it right. $85.9 million would be used to bolster online 
voter registration. There are about 10 states in the country 
that currently offer no online voter registration 
opportunities.
    Additional money would be used to support states that are 
still holding primary elections, run-off elections, etc., and 
help them to prepare and gear up for the November general 
election. Then just to note, the U.S. Postal Service, I do 
believe is an important part of this. There is a request for 
$89 billion to fully support the U.S. Postal Service, which 
plays a really central role in our elections in 2020.
    Chairman Blunt. You said 89--how much?
    Ms. Clarke. Billion.
    Chairman Blunt. $89 billion? If we did that and the $3.6 
billion would be in addition to that. I have got it. Senator--
--
    Senator Klobuchar. Senator Blunt. Yes, just before we move 
on, I see Senator Leahy has arrived. Senator Durbin had to 
leave and I know he will put his statement on the record, but 
he asked me to enter two letters onto the record, one is from 
Senator Harris and one is from the organization Public Wise and 
I ask these letters be included in the record.
    Chairman Blunt. Without objection.
    [The information referred to was submitted for the record.]
    Senator Klobuchar. I just also wanted to point out, to 
reiterate is Ms. Clarke's statement. I have heard some 
statement about the postal service, but in fact not just for 
voting but for other reasons during this pandemic. The postal 
service is more important than ever and I believe in the Heroes 
Act, separate and apart from the money for the voting, it 
included the house-passed bill $25 billion for the postal 
service. The money that Ms. Clarke was talking about was 
included in the $3.6 billion assessment from the Brennan 
Center, I believe.
    Chairman Blunt. Well, we have been joined by the president 
pro tempore emeritus of the Senate. Senator Leahy, I am glad to 
have you here and have some time, 5 minutes for comments or 
questions, however you want to use it.
    Senator Leahy. Thank you--I do have some questions for some 
of the other witnesses I want to submit for the record and a 
statement and other things for the record. But I am glad to be 
here. I just came from the floor. John Lewis, my dear friend 
and true hero, was instrumental in securing the passage of the 
Voting Rights Act and I reintroduced it to have it named after 
him.
    The Supreme Court undid much of that work with its still 
inexplicable 2013 Shelby County decision. That decision, almost 
a day after it came down, voter suppression started across the 
country and is going on even as recently as last month. I think 
that is exactly why we have to move swiftly to enact the John 
Lewis Voter Rights Advancement Act, which I reintroduced. Ms. 
Clarke, can I ask you a question? This may seem like a leading 
one, but can you explain why enacting the Voting Rights 
Advancement Act, which the House already passed and which we 
have not had brought up for a vote, is essential to restoring 
the Voting Rights Act and preserving John Lewis' Legacy?
    Ms. Clarke. Thank you so much, Senator. One of the proudest 
moments of my career was being above the Senate floor in 2006 
when 98 Senators came forward and voted to reauthorize Section 
5 of the Voting Rights Act with Congressman John Lewis and late 
Senator Kennedy standing in the center of the Senate floor, 
unanimous bipartisan support for our Nation's most important 
Federal civil rights law. Since the 2013 Shelby County 
decision, we have literally seen the floodgates of voter 
suppression open up across our country from places like 
Georgia, Texas North Carolina, and Florida. We have seen 
officials racing forward with efforts that make it harder for 
communities of color to vote.
    All of this is compounded by the current pandemic. We have 
seen officials in some states exploit the pandemic to make it 
harder for people to vote and they are not going as far as West 
Virginia and other states to really open up access for voters. 
My hope is that our Senate will use this moment on the tragic 
passing of Congressman John Lewis to honor his legacy and move 
forward with all deliberate speed to restore Section 5 of the 
Voting Rights Act. It is a critical, central and powerful tool 
in our democracy that is needed to block ongoing voting 
discrimination.
    Senator Leahy. You know, he spoke so eloquently about it in 
Vermont last year to an overflowing crowd and in a state which 
prides itself on everybody being able to vote. But it was the 
most rapt attention I have seen given to anybody speaking in 
our state. As Vice Chairman of the Appropriations Committee, 
and with the help of other Appropriations Members, I worked to 
secure $400 million in the CARES Act to help states administer 
elections during the pandemic. But that doesn't address all of 
the needs states have for what is an unprecedented election and 
what is going to be a lot more mail-in votes and so on. What 
are the potential consequences if Congress doesn't appropriate 
additional funds to help states and localities administer 
elections during this pandemic?
    Ms. Clarke. Senator, this primary season, we have seen----
    Senator Leahy. Also, what is going to be the consequences 
if we don't waive the 20 percent match requirement for states?
    Ms. Clarke. Yes. Senator, we have seen long lines. We have 
seen malfunctioning polling equipment. We have seen scenes that 
we should not tolerate in a 21st century democracy from places, 
from Milwaukee, Chicago, Atlanta. The primary election season 
is really a test run. It is a dry run for the November general 
election. This November, we are likely to see historic levels 
of turnout and participation. If we don't provide the support, 
if we don't provide the $3.6 billion that states need to 
institute proper reforms, I fear that we are bracing for a 
disaster. States need to use the 100 plus days in front of them 
to start putting in place reforms to ensure access to absentee 
balloting, expand access to early voting, and meaningful access 
on Election Day itself. That support is critical and needed 
now.
    Senator Leahy. I have other questions about the claims that 
mail-in voting is going to result in mass voter fraud even 
though we have never seen that. Mr. Chairman, do I have time to 
ask one more question to Mr. Hargett? Thank you. A Tennessee 
Court recently ordered the state to provide mail-in ballots for 
any Tennessean who requests one.
    You appealed the order. If you win in court, your state may 
be just one of the very few to require in-person voting in 
November. The issue is still unresolved. Your primary is the 
first full week in August. What steps are you taking to ensure 
that confusion over the court decision doesn't deter eligible 
voters from requesting mail-in ballots, as the law is today? 
Have you used any available Federal funding to inform Tennessee 
voters about the availability of absentee ballots? Yes? I know 
he is going to be coming on the screen. Thank you.
    Mr. Hargett. Thank you, Senator. You are right. That 
decision is currently under appeal and our election, our 
primary early voting is going on right now. Something that is 
important to know even prior to that decision we were 
advertising absentee balloting for the approximately 1.4 
million Tennesseans who are already eligible to cast an 
absentee ballot. We were doing that. This has been one of the 
most widely covered stories in the state.
    We continue to have speaking engagements virtually as well 
as in person to try and make people aware of what they have the 
opportunity to do and not to do. If I can go back, and I don't 
want to take any more of your time than necessary Senator, the 
real struggle is when people get half information. We see that 
a lot of people maybe well-meaning people on social media who 
don't give the full story.
    We would love to give the opportunity to give the full 
information to people and we will be using those dollars to 
make sure that Tennesseans understand the opportunity to vote, 
what absentee ballot deadlines are, what those requirements are 
to be able to cast an absentee ballot in Tennessee. We think 
outreach is going to be critical every election and even more 
so this time around. Senator, I hope that answers your 
question, and it is good to see you again.
    Senator Leahy. I also will submit another question to the 
record, but doing everything he can to make people who may be 
vulnerable to COVID appear in person----
    Chairman Blunt. Thank you, Senator.
    Senator Leahy [continuing]. doesn't make it sound like you 
want people to show up and vote. Thank you, Mr. Chairman.
    Chairman Blunt. Thank you, Senator. Senator Klobuchar and 
then Senator King.
    Senator Klobuchar. Okay. Yes. I wanted to follow-up with 
what Senator Leahy was asking about and that is about the 
situation in Tennessee. Secretary Hargett and----
    Chairman Blunt. I will point out that both of the 
Secretaries have a 12:30 p.m. commitment with the National 
Association of Secretaries of State. We got about 10 more 
minutes with them.
    Senator Klobuchar. Okay. Well, that is--I will keep this 
down to a few minutes. It shouldn't take that long, but it is 
pretty important. That is that Senator Leahy raised the 
Tennessee Supreme Court ruling to keep the expansion of mail 
voting in your state, allowing voters under 60 to request a 
mail ballot due to COVID. I think that was the position. Your 
position was not to allow them to request them and the primary 
argument, and this is what I thought was interesting of the 
state, was that doing that would be a problem because of a lack 
of funds required to carry out the necessary shifts in election 
infrastructure.
    As we know and as Ms. Clarke was just pointing out and 
going through with Senator Blunt the details of the funding of 
the $3.6 billion, that would be of great help and would have 
solved the problem that was the primary argument for the State 
of Tennessee for not moving to allowing requesting a mail 
ballot due to COVID-19 for voters under 60. Would the funds, 
additional funds, we will leave the amount blank right now, but 
would additional funds help the State of Tennessee send mail 
ballots to the voters that were at issue in the court case?
    Mr. Hargett. Senator first, I will need to make clear, that 
is not a Supreme Court decision. That is a Chancery Court 
decision in Davidson County, which the Supreme Court has agreed 
to take up that case. What is important to know, and this 
doesn't get reported very much, is that the legislature on 
multiple occasions in March and again in June considered 
expanding absentee voting in Tennessee. In both Chambers, that 
was rejected. As Tennessee's Chief election official, I am 
enforcing the laws and executing the laws of Tennessee. I don't 
get to--you know, the green books that house the Tennessee code 
annotated in Tennessee, they are printed in black ink and I 
don't get to take a piece of chalk and do that.
    Senator Klobuchar. Got it. Thank you for pointing that out 
and the court as well. But voters are still required to have an 
excuse to vote absentee, one of the few states on that front. 
The State Court, not the Supreme Court, but the state court has 
ruled that fear of contracting COVID-19 is a valid excuse 
during this pandemic. Is the state still arguing that it isn't 
in court?
    Mr. Hargett. We are not arguing that it is not in court. We 
know it is in court.
    Senator Klobuchar. No. No, are you still arguing that it is 
not a valid excuse in court, is the state still making that 
argument?
    Mr. Hargett. Yes. We are appealing that to the state 
supreme court and it is important to note that Tennessee--you 
mentioned excuses and we have 14 excuses and the most common 
are that you are going to be out of town during early voting or 
Election Day, that you are over 60 years of age, or that you 
are sick, ill, or hospitalized. So sick, ill, or hospitalized 
is an excuse or being a caretaker for someone who is sick, ill, 
or hospitalized.
    Senator Klobuchar. Yes, but why wouldn't the state just say 
that COVID, as many jurisdictions have done that still have 
these requirements, why can't the state just say COVID is there 
so you don't have to make this argument, you just get the mail 
in absentee ballot.
    Mr. Hargett. Well, ma'am, the policymakers of our great 
State of Tennessee have made that decision and they have done 
that in overwhelming fashion at least twice in the last 3 
months. We are upholding the laws in the State of Tennessee.
    Senator Klobuchar. Got it. I just--I thought it was just 
important to point this out because Ms. Clarke was making the 
argument that while we are happy with a lot of the work that 
has been going on in the states from Democratic and Republican 
officials for waiving things, there are still a lot of problems 
out there and one more I would add is that Tennessee does not 
permit voters to return their absentee ballot by means other 
than by mail.
    We have had a lot of discussion about the postal service 
today, so why not provide drop boxes for voters who want to 
hand-deliver their absentee ballots or mail-in ballots to 
election officials if people aren't sure about the mail? 
Tennessee is a state that is somewhat unique in that way. You 
don't even have these drop boxes.
    Mr. Hargett. Well, frankly, it is an anti-coercion 
methodology. I mean, if you look at it, if someone knows you 
have got an absentee ballot, they can say, ``hey, I will be 
glad to take that for you and drop that off for you''. They can 
ask to watch you fill that ballot out or they cannot turn it in 
at all for you. We believe it's a great security measure to 
have someone returning their own ballots by the United States 
Postal Service. It prevents a type of ballot harvesting that we 
have seen in some of the other states.
    Senator Klobuchar. Okay. Well, I think there are many 
states, including a lot of red states, that have these drop off 
ballots situations that haven't had this kind of problem. Do 
you have drop off ballots, Mr. Stream, in your jurisdiction?
    Mr. Stream. Yes, we do.
    Ms. Klobuchar. Okay, I didn't even know the answer, but I 
figured you did. Ms. Clarke, do you want to comment nationally 
on this?
    Ms. Clarke. We have not seen any complaints or problems 
with drop boxes. They have proven to be an important complement 
during a season where there are tons of people casting absentee 
ballots. They complement the limited postal box offices that 
are available in communities and are just critical to providing 
access this season.
    Senator Klobuchar. Okay, thank you very much.
    Chairman Blunt. Senator King.
    Senator King. Mr. Hargett, I am sort of astounded by your 
testimony. You are telling me that a citizen of Tennessee who 
is concerned about the coronavirus, which by the way your state 
is number 11 in the country in cases per hundred thousand 
people, that is not an ``excuse.'' I don't know why you need an 
excuse to vote, but you are saying that someone can't say I 
don't want to stand in line for 2 hours with several hundred 
other people and protect my health, that that is not good 
enough in your state? Is that what you are telling me, Mr. 
Hargett?
    Mr. Hargett. Under Tennessee law, fear of contracting the 
coronavirus is not an excuse.
    Mr. King. Well, that is pitiful. Thank you, Mr. Chairman. 
That is all.
    Chairman Blunt. All right. Thank you, Senator King. I think 
that brings us to a conclusion. I want to thank the witnesses 
for being with us today. Thanks for your time. Thanks for this 
great information for our committee. Thanks to the Members that 
participated. The record will be open for 1 week from today and 
the committee is adjourned.
    [Whereupon, at 12:33 p.m., the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              





                                  <all>
</pre></body></html>
